Washington, D.C. 20530

October 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Melvin Alexis Cortez-Ramirez v. Merrick B. Garland, Attorney General,
S.Ct. No. 21-433
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 17,
2021, and placed on the docket on September 21, 2021. The government’s response is due on
October 21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0433
CORTEZ-RAMIREZ, MELVIN ALEXIS
MERRICK B. GARLAND, ATTORNEY GENERAL

RAED GONZALEZ
GONZALEZ OLIVIERI, LLC
2200 SOUTHWEST FREEWAY
SUITE 550
HOUSTON, TX 77098
713-481-3040
RGONZALEZ@GONZALEZOLIVIERILLC.COM

